<html>
<title> - LEGISLATIVE HEARING ON H.R. 5412, TO FACILITATE AND STREAMLINE THE BUREAU OF RECLAMATION PROCESS FOR CREATING OR EXPANDING SURFACE WATER STORAGE UNDER RECLAMATION LAW, ``BUREAU OF RECLAMATION SURFACE WATER STORAGE STREAMLINING ACT''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




  H.R. 5412, TO FACILITATE AND STREAMLINE THE BUREAU OF RECLAMATION 
    PROCESS FOR CREATING OR EXPANDING SURFACE WATER STORAGE UNDER 
    RECLAMATION LAW, ``BUREAU OF RECLAMATION SURFACE WATER STORAGE 
                          STREAMLINING ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                     Wednesday, September 10, 2014

                               __________

                           Serial No. 113-88

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

89-834 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
          
    
    
    
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Raul R. Labrador, ID                 Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                      TOM McCLINTOCK, CA, Chairman
           GRACE F. NAPOLITANO, CA, Ranking Democratic Member

Cynthia M. Lummis, WY                Jim Costa, CA
Scott R. Tipton, CO                  Jared Huffman, CA
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Raul Ruiz, CA
Doug LaMalfa, CA                     Alan S. Lowenthal, CA
Jason T. Smith, MO                   Peter A. DeFazio, OR, ex officio
Bradley Byrne, AL
Doc Hastings, WA, ex officio

                                 ------   
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 10, 2014....................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     5
        Prepared statement of....................................     6
    LaMalfa, Hon. Doug, a Representative in Congress from the 
      State of California........................................     7
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     3

Statement of Witnesses:
    Keppen, Dan, Executive Director, Family Farm Alliance, 
      Klamath Falls, Oregon......................................     8
        Prepared statement of....................................    10
    Raley, Bennett, Esq., Trout Law, Denver, Colorado, on behalf 
      of Northern Colorado Water Conservancy District and the 
      National Water Resources Association.......................    13
        Prepared statement of....................................    14
    Sutton, Jeffrey P., General Manager, Tehama-Colusa Canal 
      Authority, Willows, California.............................    16
        Prepared statement of....................................    18

Additional Materials Submitted for the Record:
    Bureau of Reclamation, U.S. Department of Interior, Prepared 
      statement of...............................................    33
                                     


 
  LEGISLATIVE HEARING ON H.R. 5412, TO FACILITATE AND STREAMLINE THE 
 BUREAU OF RECLAMATION PROCESS FOR CREATING OR EXPANDING SURFACE WATER 
 STORAGE UNDER RECLAMATION LAW, ``BUREAU OF RECLAMATION SURFACE WATER 
                       STORAGE STREAMLINING ACT''

                              ----------                              


                     Wednesday, September 10, 2014

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 1324, Longworth House Office Building, Hon. Tom 
McClintock, [Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Tipton, LaMalfa, 
Hastings (ex officio); Napolitano, Costa, and Huffman.
    Mr. McClintock. The hour of 2 o'clock having arrived and a 
quorum being present, the Subcommittee on Water and Power of 
the House Natural Resources Committee will come to order.
    We meet today to hear testimony on H.R. 5412, sponsored by 
Chairman Doc Hastings.
    We will begin with opening statements, and at some point 
fairly soon, we will need to recess for votes.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. The legislation by Congressman Hastings is 
based on numerous hearings held by this subcommittee and the 
full committee on the impediments to construction of new 
reservoirs, and includes provisions previously passed by the 
Congress and signed by the President with respect to projects 
constructed by the Army Corps of Engineers. It simply extends 
them to the Bureau of Reclamation. So they should come as no 
surprise to anyone.
    In a nutshell, the bill sets time and fiscal limits on 
Bureau studies. It requires collaboration among Federal and 
non-Federal agencies, and requires the Bureau to report 
periodically to Congress to account for its responsibility to 
move these projects.
    The Bureau of Reclamation, which again, is absent despite 
the invitation from the subcommittee to testify, writes that it 
is not aware of any surface storage project that ``has been 
denied construction because of delays associated with project 
review or permitting.''
    Well, the problem is that no project has been approved for 
construction either. For example, in 2012, Mr. Thad Bettner of 
the Glenn Colusa Irrigation District testified that Reclamation 
had to consider 52 different alternatives to the site's 
reservoir, and we will hear similar testimony today.
    Droughts are nature's fault. Water shortages are our fault. 
The fact is the Federal Government has not built a major 
reservoir in California since the New Melones Dam in 1979. 
Meanwhile the population has nearly doubled.
    And we will not solve our water shortages until we build 
more dams, and we will not build more dams until we 
fundamentally reform the environmental laws that make their 
construction cost prohibitive.
    For example, in my district is the little town of 
Foresthill, population 1,500. It depends on a small reservoir 
for its water. The dam that created that reservoir was built 
with an 18-foot spillway, but no spillway gate because they did 
not need the extra storage at the time. Now they do.
    What they discovered is that the cost of installing the 
gate to provide another 18 feet of vertical storage for that 
dam is $2 million to actually fabricate and transport and 
install the gate, $2 million. But that is not the cost of the 
project because the town soon discovered it would first be 
required to conduct at least $1 million of environmental 
studies and incur at least $2 million of environmental 
mitigation costs, inflating a simple $2 million project to a 
cost-prohibitive $5 million, and that does not begin to account 
for the endless delays they would face along the way.
    The Shasta Dam was designed for 800 feet of vertical 
height, but was built to only 600 feet in the 1940s because the 
extra capacity was not needed at the time. Completing the final 
200 feet of structure would add 9 million acre-feet of storage 
to Shasta Lake, nearly doubling the storage capacity of the 
entire Sacramento River system.
    Yet raising Shasta Dam just 18\1/2\ feet has been stuck in 
environmental reviews for some 20 years now.
    The bill before us places the same time limits and cost 
limits on these endless studies as the Congress and the 
President just approved for Army Corps of Engineers projects. 
Yet the absent Bureau of Reclamation claims it simply never 
heard of such a thing, and characteristically, it is going to 
require endless months to study it. That is the fine point of 
the matter right there.
    Enough is enough. The current drought has brought into 
sharp focus the consequences of failing to provide adequate 
storage in wet years so that we have ample supply in dry ones.
    I am pleased to welcome our witnesses here today who 
understand this issue firsthand, not from an Interior 
Department desk in Washington, DC, who will speak of this 
urgent need and have been instrumental in providing input on 
these bills.
    For years we have been told that water conservation is the 
answer to all of our problems. Well, water conservation is 
critically important in managing a temporary shortage, but it 
does nothing to add supply. What we are now discovering is that 
by exhausting conservation measures in wet years, we have no 
latitude to manage a drought when it comes.
    If this current crisis teaches us anything, it must be that 
there is no substitute for adding supply, and that this bill 
and others recently heard by the subcommittee begin to restore 
this process for a new generation that is now paying dearly for 
the mistakes of their predecessors and is sadder but wiser for 
the lesson.
    With that I yield back and recognize the Ranking Member, 
Mrs. Napolitano, for 5 minutes.

STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chairman.
    And thank the witnesses for being here. My only hope would 
have been that we would have had a Minority witness included in 
this briefing.
    Mr. McClintock. They were invited.
    Mrs. Napolitano. I wish I knew because I would have called 
them to make sure they were here.
    But you are right. We are currently facing the worst 
drought in California's history and the West. It is extending 
further down, and the Senate has passed a bill to help our 
state address the crisis. Yet we have no agreement between the 
House and the Senate on the path forward.
    So this bill will not make the path any easier. Hopefully, 
I am glad you called it. The storage that is above ground is 
dams, and we will ensure that we identify below ground and 
above ground storage.
    This bill continues to mistakenly blame environmental law 
for the lack of authorization or appropriation of important 
water projects in the West. Congress passed the bipartisan 
Water Resources and Reform Development Act, known as WRRDA, 
earlier this year, and I was about to be one of the conferees, 
which authorized 16.9 billion projects across the country.
    It required the Corps to perform more water supply 
conservation and recycling work in their facilities, which I 
have been trying to champion for years, and it created 
controversial environmental streamlining provisions that we now 
see in this bill today. We agreed to it on a bipartisan basis, 
even though we had to kind of hold our nose to it in some 
areas, to work together on that.
    Yet many of us still have strong concerns with the 
environmental streamlining provisions in WRRDA, but support 
WRRDA as a compromise between both parties. Today is not a 
compromise like the WRRDA bill was. It takes the most 
controversial provisions of WRRDA, implements them within the 
Bureau of Reclamation projects without providing any money, not 
one penny in Federal authorization for new Bureau facilities.
    The problems with the bill, it creates a new bureaucracy 
for conducting and approving surface water storage on dams. 
That could lead to further delay. Dams run into the billions 
and anywhere between 10 to 15 years to build, given all of the 
regulations that are attached to it.
    The bill requires eight new reports to Congress or related 
congressional notifications, three new public solicitations, 
two new guidance or formal rulemaking processes, requires the 
creation of a new process for the administration of financial 
penalties and resultant funds transfers among Federal agencies 
establishing an entirely new program to measure and report on 
progress.
    It also accelerates NEPA review process by creating strict 
deadlines for agencies to perform environmental reviews.
    At the same time, the agency charged with the environmental 
review, such as Fish and Wildlife, NOAA and NEPA, continue to 
face budget cuts from this Congress that hamper their abilities 
to participate in the environmental review process.
    The current deadline for agencies to act only compounds, or 
creating those deadlines creates further problems for the 
agencies. It places several limitations on the length of public 
comment, public comment, mind you, during the environmental 
review process, and bars claims seeking judicial review of 
permits, licenses or other approvals issued by Federal agencies 
up to 3 years from the approval date.
    The public has to be included in the development of new 
water storage with the above ground or below ground proposals. 
In California, the public has supported new water 
infrastructure and expanded water storage. The easy projects 
have been built.
    New water development takes more money and more time. 
Cutting the public out of the process by bulldozing over 
Federal review processes that have been in place for 40 years 
simply does not work in California, and it creates a lot of 
environmental problems, plus only attorneys are making money on 
this.
    Mr. Chairman, the real problem with water projects being 
delayed is lack of funding. The Congress has continued to 
ignore the funding needs of the Bureau of Reclamation and, more 
importantly, Title 16 recycling projects with a backlog of 
almost 400 million. There continues to be that backlog for 
active congressionally authorized water reuse and reclamation 
projects. These are located across the West, and if additional 
funding were made available we could at least help give one 
more tool to the people on these drought cycles and quicker 
delivery of much needed water.
    Just yesterday the GAO released a report indicating that at 
least $1.6 billion, $1.6 billion of payments for irrigation 
projects remain outstanding, and much of this money will never 
be received in the Federal coffers because most of this will be 
in either grants or other areas where the people will not be 
paying it back.
    I ask unanimous consent that this be included in the 
record.
    Mr. McClintock. Without objection.
    Mrs. Napolitano. And we have not paid for the projects that 
were built 40 years ago. Congress is not allocating any more 
money for projects already approved and those that are 
forthcoming within this Congress and other Congresses to 
follow.
    Mr. Chairman, a serious effort to address new Bureau 
projects should have been developed in a bipartisan manner well 
in advance of the waning days of this Congress, and I implore 
you to reconsider.
    I yield back.
    Mr. McClintock. For the record, the Bureau of Reclamation 
was invited to testify before the subcommittee today and 
declined to do so. The Majority sent to the Minority a list of 
Majority witnesses and asked the Minority if they had witnesses 
they wish to have invited. They emailed back to the Majority 
staff, no, they did not.
    With that I recognize the Chairman of the Natural Resources 
Committee, Congressman Doc Hastings, the author of the measure.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you very much, Mr. Chairman, for the 
courtesy and for holding this important hearing today.
    I firmly believe that America needs an ``all-of-the-above'' 
water supply strategy. Water storage has been the key to the 
economic prosperity and way of life in my central Washington 
district, which is home to two large Federal water projects. 
Together these two projects irrigate more than a million acres 
of farmland, make possible a vital navigation link for millions 
of tons of grain and commodities annually, provide numerous 
recreation and flood control benefits, and provide over 21 
billion kilowatt hours of carbon-free, renewable hydroelectric 
power to customers in the Northwest.
    Today, this desert has been transformed to one of the most 
productive and diverse agricultural areas in the world. This is 
possible because a prior generation had the vision of capturing 
spring runoff to deliver water during dry times. Surface 
storage continues to have lasting and positive impacts not only 
in my central Washington area, but to the country in general.
    As we will hear today, we need more storage in light of 
growing and diverse needs. Conservation alone is not the 
answer. The Yakima River Valley has done a great work in 
conserving water over the past several decades, but 
conservation alone is not the answer. Several hundred thousand 
acre-feet or more storage is needed. This means more water for 
people and fish, and that is why those in the Yakima Valley in 
my state are pursuing more multiple-benefit storage.
    In Federal irrigation projects, the Federal Government 
plays a lead role in development of new and expanding storage. 
Careful analysis and study is needed. However, as we have seen 
in California, we do not want good proposals to be studied to 
death and have paralysis-by-analysis, leaving people high and 
dry when a natural drought coupled with Federal endangered 
species regulations make things much worse. It is painfully 
clear, given the Bureau of Reclamation's inaction on storage in 
California, that the agency's feasibility study process needs 
to be modernized in a productive way.
    For this reason, I have introduced the Bureau of 
Reclamation Surface Water Storage Streamlining Act. It is a 
common sense bill based on the precedent of the newly enacted 
Water Resources Reform and Development Act, or WRRDA, that only 
four Members of this House opposed on final passage. The bill 
simply mirrors the process that was applied to the Corps of 
Engineers in that recent public law by setting the same 
standards and expectations for the Bureau of Reclamation to 
become more transparent and accountable in how it operates.
    It does not circumvent Federal environmental law, and it 
allows numerous instances for the Bureau of Reclamation to 
extend studies with the simple requirement that the agency 
explain why more time is needed. What a novel concept.
    Overwhelming bipartisan majorities in the House and the 
Senate endorsed this approach for the Army Corps of Engineer 
projects, and President Obama signed it into law. So it 
certainly is a reasonable model for modernizing the Bureau of 
Reclamation process.
    If the Corps' study process for water projects can be 
reformed, then Reclamation's can in the same manner. This bill 
will simply place the two agencies on the same track.
    We owe it to current and future communities, rural and 
urban, to build the next generation of surface storage. The 
status quo is unacceptable. Today's California will be like 
other places in the West tomorrow.
    For us to have another water supply renaissance, we must 
embrace new or expanded storage so we can truly have an ``all-
of-the-above'' water energy supply strategy well into the 
future. We have the power to make that happen.
    In closing, I want to thank our witnesses for being here 
today. They certainly have firsthand knowledge of how this new 
and expanded water storage would be for the future, and I 
appreciate the Family Farm Alliance's and the Natural Water 
Resources Association's support for this bill.
    And with that I would just point out, if I may, Mr. 
Chairman, Mrs. Napolitano mentioned about the outstanding debt 
in the GAO report. That debt is contractually due to be paid 
back in time. It is like having a GAO report in the 15th year 
of a 30-year mortgage saying, ``Goodness, they have not repaid 
their debt.''
    Well, of course they have not. They are only halfway 
through the mortgage, and I think the analysis of that GAO 
report points out that obvious truth in that report.
    And with that I yield back my time.
    [The prepared statement of Mr. Hastings follows:]
  Prepared Statement of the Hon. Doc Hastings, Chairman, Committee on 
                           Natural Resources
    Thank you, Chairman McClintock, for holding this important hearing 
today. I firmly believe that America needs an ``all-of-the above'' 
water supply strategy.
    Water storage has been the key to economic prosperity and a way of 
life in my central Washington district, which is home to two large 
Federal water projects. Together, these two projects irrigate more than 
a million acres of farmland, make possible a vital navigation link for 
millions of tons of grain and commodities annually, provide numerous 
recreation and flood control benefits and provide over 21 billion 
kilowatt hours of carbon-free, renewable hydroelectric power to 
customers in the Pacific Northwest. Today, this desert has been 
transformed to one of the most productive and diverse agricultural 
areas in the world. This is possible because a prior generation had the 
vision of capturing spring runoff to deliver water during dry times. 
Surface storage continues to have lasting and positive impacts not only 
in central Washington but to the country in general.
    As we will hear today, we need more storage in light of growing and 
diverse needs. Conservation alone is not the answer. The Yakima Valley 
has done great work in conserving water over the past several decades, 
but conservation alone isn't the answer. Several hundred thousand acre-
feet or more storage is needed. This means more water for people and 
fish and that's why those in the Yakima Valley are pursuing more 
multiple-benefit storage.
    In Federal irrigation projects, the Federal Government plays a lead 
role in development of new and expanded storage. Careful analysis and 
study is needed. However, as we have seen in California, we don't want 
good proposals to be studied to death and have paralysis-by-analysis 
leaving people high and dry when a natural drought coupled with Federal 
endangered species regulations make things much worse.
    It is painfully clear, given the Bureau of Reclamation's inaction 
on storage in California, that the agency's feasibility study process 
needs to be modernized in a productive way.
    For this reason, I've introduced the Bureau of Reclamation Surface 
Water Storage Streamlining Act. It's a common sense bill based on the 
precedent of the newly enacted Water Resources Reform and Development 
Act, or WRRDA, that only four Members of this House opposed.
    The bill simply mirrors the process that was applied to the Corps 
of Engineers in that recent public law by setting the same standards 
and expectations for the Bureau of Reclamation to become more 
transparent and accountable in how it operates. It does not circumvent 
Federal environmental law and allows numerous instances for the Bureau 
of Reclamation to extend studies with the simple requirement that the 
agency explain why more time is necessary.
    Overwhelming bipartisan majorities in the House and Senate endorsed 
this approach for Army Corps projects, and President Obama signed it 
into law, so it certainly is a reasonable model for modernizing for 
Bureau of the Reclamation process. If the Corps study process for water 
projects can be reformed, then Reclamation's can in the same manner. 
The bill will simply place the two agencies on the same track.
    We owe it to current and future communities--rural and urban--to 
build the next generation of surface storage. The status quo is 
unacceptable. Today's California will be other places in the West 
tomorrow.
    For us to have another water supply renaissance, we must embrace 
new or expanded storage so that we can a truly have an all-of-the-above 
water supply strategy well into the future. We have the power to make 
that happen.
    In closing, I want to thank the witnesses here today who have 
first-hand knowledge of why we need new or expanded water storage for 
the future. I appreciate the Family Farm Alliance's and the National 
Water Resources Association's support for my bill and look forward to 
your testimony.

                                 ______
                                 

    Mrs. Napolitano. Would the gentleman yield temporarily just 
for a second?
    Mr. Hastings. Yes, I would be more than happy to.
    Mrs. Napolitano. Well, apparently the report actually says 
that some of these repayments may not be realized because some 
of them will be granted or they will get other discounts, and 
so most of the money may not come back.
    Mr. Hastings. Reclaiming my time.
    Mrs. Napolitano. Thank you.
    Mr. Hastings. You know, that is speculation that they may 
or may not for whatever reasons. My point is simply that 
sometimes these are long contracts that have not been fully 
repaid. That is why I used the analysis of a mortgage.
    One can criticize that you have not paid back a 30-year 
mortgage after 15 years, but you are not contractually supposed 
to in that time. I think that is the point that should be 
pointed out here, rather than saying, ``Oh, goodness, we should 
not look at new ways because we have not paid back an existing 
mortgage.''
    And with that I yield back my time.
    Mr. McClintock. The Chair is now pleased to recognize the 
gentleman from California, Mr. LaMalfa, for 5 minutes.

    STATEMENT OF THE HON. DOUG LaMALFA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. LaMalfa. Mr. Chairman, thank you.
    I am pleased that we are hearing this key measure today, 
one that will help with the development of surface storage 
projects across the West, including in my own region in 
California, which has had the failure to adequately update our 
water supply system. It has had disastrous consequences for 
everyone, but especially so for the agricultural economy.
    Hundreds of thousands of acres of the most productive land 
in the world lies fallow. Thousands of jobs have disappeared, 
creating disproportionate amounts of unemployment, especially 
in central California.
    Our state's economy is experiencing billions of dollars in 
losses. A water supply system built for 20 million people now 
serves close to 40 million, and this problem will only be 
exacerbated in coming years.
    However, we know how to address this problem: increase the 
state's water supply, largely by contracting new water storage 
facilities.
    We also know the best locations for these facilities are 
where we get the best return on our investment. That is why I 
have sponsored my own bill, H.R. 4300, to accelerate and 
finally complete the study of Sites Reservoir in Colusa and 
Glenn Counties. This project alone could generate enough water 
for millions of Californians and help supply agriculture, as 
well as provide environmental benefits in the Sacramento River 
and the Delta.
    The State legislature even recently supported a bond which 
could fund much of this project. So we know that private funds 
also would become available.
    However, after spending over a decade and over $150 million 
in state and Federal funds, the study of this project has still 
not be finalized. Chairman Hastings' bill takes a similar 
approach to H.R. 4300, creating benchmarks for completion of 
storage projects like Sites Reservoir and using a framework, 
that of the recent water resources bill, to authorize projects.
    This measure will allow us to move forward with desperately 
needed projects like Sites that will end the gap in 
California's water supply that will only continue to grow if we 
do not take action.
    I am pleased the committee and Chairman Hastings are taking 
leadership on this issue and look forward to moving this 
measure forward.
    So, Mr. Chairman, thank you, and I look forward to making 
an introduction later on in the panel. I appreciate it.
    Mr. McClintock. Very good. Thank you, Mr. LaMalfa.
    We will now hear from our panel of witnesses. Each witness' 
written testimony will appear in full in the hearing record. We 
ask that the witnesses keep their remarks to 5 minutes, as 
outlined in our invitation letter.
    We have a helpful timing light to assist in that 5 minutes. 
The green light means you have up to 5 minutes. The yellow 
light means 1 minute. Red light means for God's sake stop.
    And with that I am pleased to introduce our first witness, 
Mr. Dan Keppen, Executive Director of the Family Farm Alliance 
from Klamath Falls, Oregon, to testify.

   STATEMENT OF DAN KEPPEN, EXECUTIVE DIRECTOR, FAMILY FARM 
                ALLIANCE, KLAMATH FALLS, OREGON

    Mr. Keppen. Good afternoon, Chairman McClintock and Ranking 
Member Napolitano and members of the subcommittee. Thank you 
for this opportunity to appear before you to discuss the Bureau 
of Reclamation's Surface Water Storage Streamlining Act.
    This bill provides a critical first step toward addressing 
current regulatory and bureaucratic challenges that many times 
will delay or even halt the development of new water supply 
enhancement projects in the Western United States.
    My name is Dan Keppen. I serve as the Executive Director of 
the Family Farm Alliance. We advocate for family farmers, 
ranchers and allied industries in the 17 Western states, and we 
are focused on one mission: to ensure availability of reliable, 
affordable irrigation water supplies to Western farmers and 
ranchers.
    The Alliance is in full support of Mr. Hastings' bill, and 
we encourage the subcommittee to move the legislation forward 
to enactment.
    Many of us in the West have long advocated for the critical 
need to modernize water supply and conveyance infrastructure in 
a way that keeps pace with expanding urban and environmental 
water demands. Unfortunately, the reality in the world of 
Western waters is that meaningful policy changes generally only 
occur immediately after a devastating flood or during a 
critical drought.
    With much of the West blanketed by a drought this year, 
there has been heightened recent interest expressed of the need 
for additional water storage facilities. My board of directors 
quickly grasped this and earlier this year authorized the 
release of a report that provides detailed answers to 20 
frequently asked questions about new water storage projects, 
some of which may come up in today's hearing.
    I think you all have copies of this report, and I also have 
additional hard copies on the press table.
    Family Farm Alliance members rely on the traditional water 
and power infrastructure built over the last century to deliver 
irrigation water supplies vital to their farming operations. 
Our membership has been advocating for new storage for over 20 
years.
    Water conservation and water transfers are certainly 
important tools for improving management of increasingly scarce 
water resources, but as Chairman Hastings mentioned, these 
demand management actions must be balanced with supply 
enhancement measures that provide the proper mix of long-term 
solutions for the varying specific circumstances facing the 
West.
    As you are all aware, actually developing new storage 
projects is much easier said than done. For many reasons, 
political, economic and social, the construction of traditional 
surface water storage projects is undertaken on a much more 
limited basis today than in decades past. Even if authorization 
and funding is secured for a new storage project, the existing 
procedures for developing additional water supplies can make 
project approval incredibly burdensome.
    On several occasions the Family Farm Alliance has provided 
specific recommendations to Congress and the White House on how 
to streamline restrictive Federal regulations to make these 
projects happen. Our organization is on record for firmly 
supporting the Water Supply Permitting Coordination Act, which 
was the subject of a hearing before this subcommittee last 
February as well.
    Likewise we strongly support the Bureau of Reclamation's 
Surface Water Storage Streamlining Act, which would accelerate 
studies, expedite completion of reports, accelerate 
implementation of projects, and authorize the development of an 
annual report to Congress on future surface water storage 
development.
    The Act would provide the same streamlined water project 
development processes for Bureau of Reclamation projects that 
the Water Resources Reform and Development Act of 2014 provided 
for U.S. Army Corps of Engineers' projects, as previously 
mentioned. That law, WRRDA, was passed earlier this year in 
both the House and Senate on a strong bipartisan basis and 
signed into law by President Obama.
    Chairman Hastings' new bill would insert stronger 
accountability into Reclamation's surface storage study 
process, enhance transparency associated with interim and final 
storage project studies, and engage local stakeholders. All of 
these actions would improve the status quo, in our view.
    We have some minor specific suggestions that we believe 
would improve the current bill, and they are noted in our 
written testimony, which I can elaborate on in the Q&A if 
necessary.
    The Family Farm Alliance will continue to work with this 
subcommittee, the Congress, and other interested parties to 
build a consensus for improving the Federal regulatory and 
permitting process. A major reason the Alliance continues to 
push for improved and expanded water storage and conveyance 
infrastructure is not to support continued expansion of 
agricultural water demand, which is not happening in most 
places, but to mitigate for the water that has been re-
allocated away from agriculture toward urban power, 
environmental and recreational demands in recent decades.
    If we do not find a way to restore water supply reliability 
for Western irrigated agriculture through a combination of new 
infrastructure, other supply enhancement efforts, and demand 
management, our country's ability to feed and clothe itself and 
the world will be jeopardized.
    Thank you again for this opportunity to testify before the 
subcommittee, and I stand ready to answer any questions you may 
have.
    [The prepared statement of Mr. Keppen follows:]
   Prepared Statement of Dan Keppen, Executive Director, Family Farm 
                    Alliance, Klamath Falls, Oregon
    Chairman McClintock, Ranking Member Napolitano and members of the 
subcommittee, thank you for the opportunity to appear before you to 
discuss the ``The Bureau of Reclamation Surface Water Storage 
Streamlining Act,'' legislation that provides a critical first step 
toward addressing current regulatory and bureaucratic challenges that 
many times will delay or even halt the development of new water supply 
enhancement projects in the Western United States. My name is Dan 
Keppen, and I serve as the Executive Director of the Family Farm 
Alliance. The Alliance advocates for family farmers, ranchers, 
irrigation districts, and allied industries in 17 Western states. The 
Alliance is focused on one mission--to ensure the availability of 
reliable, affordable irrigation water supplies to Western farmers and 
ranchers.
    The Family Farm Alliance is in full support of ``The Bureau of 
Reclamation Surface Water Storage Streamlining Act'' and encourages the 
subcommittee to move the legislation forward to enactment.
    I have over 25 years of experience working on water resources 
engineering, planning and policy matters in the Western United States. 
I am a registered professional engineer in California and a past 
registered engineer and certified water rights examiner in Oregon. For 
3 years, I managed the Tehama County Flood Control and Water 
Conservation District in California. I was appointed by the State of 
California to serve on the Department of Water Resources Offstream 
Storage Advisory Committee. Most pertinent to the focus of today's 
hearing, is my personal experience in working with envisioning, 
designing, permitting, and finally building new water storage projects 
in the West, including conception-to-construction management of three 
small dams and reservoirs in Oregon's Willamette Valley.
    With much of the West blanketed by moderate to severe drought 
conditions, there has been heightened recent interest expressed for the 
need for additional water storage facilities. The call for more water 
storage only makes sense when one considers the paradigm shift of more 
conservative water operations coupled with the added water supplies 
necessary to meet demands for water that, in many basins in the West, 
have simply outgrown the existing supply. Earlier this year, the 
Alliance released a report that provides detailed answers to 20 
frequently asked questions about new water storage projects. I have 
provided hard copies of this report to the subcommittee, and extra 
copies are available at the press table.
    Family Farm Alliance members rely on the traditional water and 
power infrastructure built over the last century to deliver irrigation 
water supplies vital to their farming operations. Our membership has 
been advocating for new storage for over 20 years, and we have provided 
specific recommendations to Congress and the White House on how to 
streamline restrictive Federal regulations to help make these projects 
happen. While water conservation and water transfers are important 
tools for improving management of increasingly scarce water resources, 
our members believe these demand-management actions must be balanced 
with supply enhancement measures that provide the proper mix of long-
term solutions for the varying specific circumstances in the West.
    Regardless of cause, climate variability is one critical factor 
that underscores the need to develop new water storage projects in the 
Western United States. There are several reports \1\ that suggest 
existing reservoirs will not be capable of safely accepting the 
earlier, more intense snowmelt that has been predicted for many Western 
watersheds. A report released in 2006 by the State of California 
predicted that climate change would result in a drastic drop in the 
state's drinking and farm water supplies, as well as more frequent 
winter flooding. The report suggested that warmer temperatures will 
raise the snow level in California's mountains, producing a smaller 
snowpack and more wintertime runoff. This means more floodwaters to 
manage in winter, followed by less snowmelt to store behind dams for 
cities, agriculture and fish. Water resources experts in other parts of 
the West also realize that new surface water storage projects may be 
necessary to capture more snowmelt or rainfall.
---------------------------------------------------------------------------
    \1\ Including: California Climate Change Center, 2006--Our Changing 
Climate--Assessing the Risks to California, Summary Report. Tanaka et 
al. 2007, Climate Warming and Water Management Adaptation for 
California. Department of Civil and Environmental Engineering, 
Department of Agricultural and Resource Economics, University of 
California, Davis. May 3, 2007 Testimony Submitted on Behalf of The 
Western Governors' Association to U.S. House Committee on Science and 
Technology.
---------------------------------------------------------------------------
    Some Western water managers believe there will likely be a ``rush'' 
to re-operate existing multi-purpose water storage projects to restore 
some of the lost flood protection resulting from the changed hydrology. 
These projects were designed to provide a certain level of flood 
protection benefits that will be reduced because of more ``rain-induced 
flood'' events. There will be a call to reduce carryover storage and to 
operate the reservoirs with more flood control space and less storage 
space. If this is done, it will even further reduce the availability 
and reliability of agricultural and urban water supplies.
    Further, many water users are located upstream of existing 
reservoirs. These users must then rely on direct or natural flows that 
typically have been primarily fueled by snowmelt. In the Rocky Mountain 
West, snowmelt traditionally occurs over several months during the 
onset of the irrigation season, and thus the snowpack is an important 
type of water storage. Since irrigation water conveyance systems are 
never 100 percent efficient, water is diverted, conveyed and spread on 
the land in excess of the net irrigation demand. This surplus returns 
to the stream and recharges groundwater aquifers, which augments water 
supplies for all users located downstream from the original diversion. 
It also supports valuable habitat used by migrating waterfowl. If more 
runoff were to occur during warm cycles in winter before the onset of 
the irrigation season, this not only would impact water supply 
availability to these producers by decreasing the storage capacity 
usually provided by the tempered melting of the snowpack, but would 
also impact the utility associated with the return flows from their 
irrigation practices. As the snowpack is reduced by early melting, this 
reduced storage capacity must be replaced by new surface water storage 
just to stay on par with our currently available water supplies.
    As you are all aware, actually developing new storage projects is 
much easier said than done. For many reasons--political, economic and 
social--the construction of traditional surface storage projects is 
undertaken on a much more limited basis than in decades past. Even if 
authorization and funding is secured for a new storage project, the 
existing procedures for developing additional water supplies can make 
project approval incredibly burdensome.
    The President of the Family Farm Alliance--Wyoming rancher Patrick 
O'Toole--has testified before this subcommittee several times, and 2 
years ago his testimony detailed the permitting challenges he 
encountered in building the Little Snake Supplemental Irrigation Supply 
Project (High Savery Project) in Wyoming. That project was built in 
less than 2 years, but took more than 14 years to permit.
    Clearly, the existing procedures for developing additional water 
supplies need to be revised to make project approval less burdensome. 
By the time project applicants approach Federal agencies for permits to 
construct multi-million dollar projects they have already invested 
extensive resources toward analyzing project alternatives to determine 
which project is best suited to their budgetary constraints. However, 
current procedure dictates that Federal agencies formulate another list 
of project alternatives which the applicant must assess, comparing 
potential impacts with the preferred alternative. These alternatives 
often conflict with state law or are simply not implementable in the 
first place yet valuable resources are required to be expended to 
further study of these additional alternatives in the Federal 
permitting process. We appreciate that this subcommittee had explored 
opportunities and introduced legislation to expedite this process and 
reduce the costs to the project applicant. Our organization is on 
record for formally supporting the ``Water Supply Permitting 
Coordination Act,'' which was the subject of a hearing before this 
subcommittee last February.
    Likewise, the Family Farm Alliance strongly supports the ``Bureau 
of Reclamation Surface Water Storage Streamlining Act,'' which would 
accelerate studies, expedite completion of reports, accelerate 
implementation of projects, and authorize the development of an annual 
report to Congress on future surface water storage development. The Act 
would provide the same streamlined water project development process 
for Bureau of Reclamation projects that the Water Resources Reform and 
Development Act (WRRDA) of 2014 provided for U.S. Army Corps of 
Engineers projects, a law that was passed earlier this year in both the 
House and Senate on a bipartisan basis and signed into law by President 
Obama. The Act would insert stronger accountability into Reclamation's 
surface storage study process, enhance transparency associated with 
interim and final storage project studies and engage local 
stakeholders. All of these actions would improve the status quo, in our 
view. We have some very minor, specific suggestions that we believe 
would improve the current bill:

    <bullet> First, we believe provisions should be added to 
            ``Expedited Completion of Studies'' that require the 
            Secretary of Interior to submit to the appropriate 
            congressional committees an estimate, to the extent 
            practicable, of the Federal, non-Federal and total costs of 
            proposed projects and a recommendation of the level of 
            funding required in each fiscal year to complete the 
            project on the most expedited basis. Anything that would 
            encourage Reclamation to address the cost issues would be 
            very helpful in moving these projects forward and 
            determining Reclamation's capacity to execute on favorable 
            reports.

    <bullet> Second, we recommend that the bill include language with 
            specific reference to non-Federal state and local projects 
            that could be integrated with the operation of federally 
            owned facilities. We want to ensure Reclamation is the lead 
            agency in the case of permitting a non-federally built 
            storage project that has a direct Federal nexus with a 
            Reclamation project--i.e. Sites Reservoir (California)--
            where it will be integrated into the Central Valley Project 
            operations but (as proposed by the local Joint Power 
            Authority) remain a non-federally developed and owned 
            facility.

    The Family Farm Alliance will continue to work with this 
subcommittee, the Congress and other interested parties to build a 
consensus for improving the Federal regulatory and permitting process. 
A major reason the Alliance continues to push for improved and expanded 
water storage and conveyance infrastructure is not to support continued 
expansion of agricultural water demand (which is NOT happening in most 
places), but to mitigate for the water that has been reallocated away 
from agriculture toward growing urban, power, environmental and 
recreational demands in recent decades. If we don't find a way to 
restore water supply reliability for Western irrigated agriculture 
through a combination of new infrastructure, other supply enhancement 
efforts and demand management--our country's ability to feed and clothe 
itself and the world will be jeopardized. Thank you again for this 
opportunity to testify before the subcommittee, and I stand ready to 
answer any questions you may have.

                                 ______
                                 

    Mr. McClintock. Thank you, Mr. Keppen.
    I now recognize Mr. Bennett Raley, attorney representing 
the Northern Colorado Water Conservancy District and the 
National Water Resources Association from Denver, Colorado.

STATEMENT OF BENNETT RALEY, ESQ., TROUT LAW, DENVER, COLORADO, 
 ON BEHALF OF NORTHERN COLORADO WATER CONSERVANCY DISTRICT AND 
            THE NATIONAL WATER RESOURCES ASSOCIATION

    Mr. Raley. Thank you, Mr. Chairman, Ranking Member 
Napolitano, members of the subcommittee.
    It is always a pleasure to be before this subcommittee. I 
am here today as counsel to the Northern Colorado Water 
Conservancy District, which is the repayment entity for the 
Colorado Big Thompson Project in northeastern Colorado. I am 
authorized to say that the National Water Resources 
Association, like Northern, support the Bureau of Reclamation's 
Surface Water Storage Streamlining Act.
    I need not brief this subcommittee of the fact that there 
is a moderate to severe drought throughout much of the West, a 
drought that has been pervasive for, one could go back, 
depending on the basin, certainly to 2001, and with 
intermittent good years in between, the trend is clearly 
continued drought.
    New storage will absolutely be a critical part of dealing 
with that continued drought. New storage does not mean 
additional, as Mr. Keppen says, agricultural uses or for that 
matter necessarily additional municipal uses. What new storage 
is is a tool for managers to manage most effectively the 
available water supply, including meeting environmental 
demands.
    Every project that I am familiar with or work on has 
environmental components, and storage is a component. Let me 
address momentarily conservation. Conservation absolutely is a 
component. As my testimony details, the Northern District has 
built a non-Federal project, completed in the 1980s, the Windy 
Gap Project, that uses unused capacity in a Federal project.
    Northern is also in the process of building two other large 
surface storage projects. These are non-Federal projects, both 
of which will be interrelated in some fashion with Reclamation 
projects.
    The point of that history, Mr. Chairman, is that the 
Northern District actually has a fair amount of experience with 
developing new water storage projects, and the three projects 
that I mentioned, in theory, they could have been Bureau of 
Reclamation projects.
    The District chose, and its participating entities, the 
entities paying the bills, chose to not do so in part because 
of a concern that a perhaps outmoded Bureau process would add 
to what is already a very extensive process.
    I have a couple observations to make that are historical in 
nature but I think relevant here. First of all, back in the 
1980s, there was a large water supply project in Colorado. It 
would not have served my client, but that project was vetoed. 
It is what it is.
    The point is that the demand from that project did not 
disappear. It simply is satisfied other places other ways, 
including drying up agricultural lands within the Northern 
District. So not doing something to optimize existing Bureau 
facilities does not mean that the demand goes away. I think 
California demonstrates that it puts pressure elsewhere, like 
on groundwater.
    The second historical observation I would like to make is 
that absolutely if Congress is going to authorize and fund a 
reclamation project, it needs to know what it is approving and 
funding. The function of the feasibility reports historically, 
those were the most important sources of information on a 
project.
    But I would submit to you that the importance is now 
different because in addition to a feasibility report for a 
Bureau project, you have extraordinarily extensive NEPA, in 
many cases extraordinarily extensive Endangered Species Act 
compliance, and do you know what? We believe it is appropriate 
to modernize the Bureau's facility to streamline the 
feasibility report aspects of it and related process, and we 
are pretty comfortable there will be no shortage of information 
to the public, no shortage of the ability of the public to 
participate, and we think that it simply will accelerate the 
optimum development of the scarce resources that we currently 
have.
    Thank you, Mr. Chairman, Ranking Member, and good to see 
you.
    [The prepared statement of Mr. Raley follows:]
Prepared Statement of Bennett W. Raley, Trout, Raley, Montano, Witwer & 
  Freeman, P.C., representing the Northern Colorado Water Conservancy 
         District and the National Water Resources Association
    Chairman McClintock, Ranking Member Napolitano, members of the 
subcommittee, it is an honor to be before you today to discuss the 
``Bureau of Reclamation Surface Water Storage Streamlining Act.'' In 
summary, the National Water Resources Association and the Northern 
Colorado Water Conservancy District support this legislation because it 
will provide for a streamlined and more effective process for the 
development of new Reclamation water supply projects. Congress recently 
provided similar authorities to the U.S. Army Corps of Engineers in the 
2014 Water Resources Reform and Development Act, P.L. 113-121. We are 
very hopeful that this legislation will enjoy similar broad bipartisan 
support.
    The National Water Resources Association, more commonly known as 
NWRA, represents state water associations, irrigation districts, 
cities, towns and other water providers that share a common interest in 
the development and management of reliable irrigation and municipal 
water supplies in the western states. NWRA members provide water to 
millions of people, agricultural producers and other businesses 
throughout the United States. For more than 80 years NWRA members have 
worked to provide water in a manner that provides both economic and 
ecosystem benefits to communities.
    The fact that Reclamation processes can be improved is illustrated 
by Northern Water's experience in developing water supply projects. 
Northern Water is the repayment entity for the Colorado-Big Thompson 
Project, which is one of the most successful Federal reclamation 
projects in the West. Approximately 860,000 people live within the 
boundaries of Northern Water and its Municipal Subdistrict. Northern 
Water and its Municipal Subdistrict provide year-round water supplies 
to over 40 municipalities and domestic water supply districts. Northern 
Water also delivers water to more than 120 ditch, reservoir, and 
irrigation companies that serve thousands of farms and more than 
640,000 acres of some of the most productive farmland in the western 
United States.
    The original Colorado-Big Thompson Project was completed by 
Reclamation in 1957 and is now operated by both Reclamation and 
Northern Water. C-BT Project Water is allocated by Northern Water to 
agricultural, domestic, municipal and industrial uses on the Eastern 
Slope of Colorado. In recognition of the fact that northern Colorado 
includes both vibrant cities and some of the most productive 
agricultural lands in the Nation, in the late 1960s and 1970s growing 
northern Colorado communities elected to develop the Windy Gap Project 
rather than rely solely on the transfer of water from existing 
agricultural uses to meet future municipal demands. The Windy Gap 
Project was completed in 1985. However, the continued growth of 
northern Colorado has created the need to develop additional municipal 
water supplies. As a result, northern Colorado is the project sponsor 
for the Northern Integrated Supply Project (``NISP''), and Northern's 
Municipal Subdistrict is the project sponsor for the Windy Gap Firming 
Project. Both NISP and the Windy Gap Firming Project are designed to 
meet future municipal water demands in northern Colorado in a way that 
protects existing agricultural water users in northern Colorado.
    The Northern Integrated Supply Project is a regional water supply 
project being developed by Northern Water on behalf of 15 northern 
Colorado water providers that are faced with a 60,000 acre-foot water 
supply shortfall by 2060. NISP will supply participating water 
providers with approximately 40,000 acre-feet of additional water 
supply annually. NISP will include two new ``offstream'' reservoirs 
with a combined capacity of approximately 215,000 acre-feet of water, 
and two water pumping stations and related pipelines. NISP will also 
include appropriate environmental and related mitigation elements. The 
Army Corps of Engineers is the lead Federal agency for NISP compliance 
with the National Environmental Policy Act. The Corps issued a draft 
Environmental Impact Statement for public comment in April 2008. In 
February 2009, the Corps decided to prepare a supplemental DEIS to 
include additional studies primarily centered on hydrologic, 
streamflow, and impacts modeling. The supplemental DEIS is scheduled to 
be completed and released for public comment in early 2015, and a final 
EIS is anticipated in late 2015.
    The Windy Gap Firming Project is a collaboration between 13 
northern Colorado water providers that are projected to have a water 
supply shortfall of 64,000 acre-feet in 2030 and 110,000 acre-feet by 
2050. The Windy Gap Firming Project will, when combined with 
conservation, water reuse, and the development of other supplies, be an 
important component of the strategy to supply this future demand. The 
Windy Gap Firming Project includes a new 90,000 acre-foot East Slope 
``off-channel'' reservoir. Reclamation is the lead Federal agency for 
the Windy Gap Firming Project. A final Environmental Impact Statement 
was completed in 2011, and the Municipal Subdistrict is in the process 
of negotiating a contract with Reclamation for the use of C-BT Project 
capacity by the Windy Gap Project. The Windy Gap Firming Project 
includes a wide range of environmental mitigation and enhancement 
measures, including a state-approved fish and wildlife mitigation plan 
that also addresses stream temperature considerations, increased 
flushing flows to clean sediment in the Colorado River, nutrient 
removal to offset water quality impacts to the C-BT Project, a 
voluntary enhancement plan to fund future stream restoration and 
habitat-related projects, and additional water for local communities 
that will also benefit downstream aquatic habitat.
    The point of the discussion of this history is that Northern Water 
and its Municipal Subdistrict have substantial experience with the 
development of water supply projects. While it is conceptually possible 
that the Windy Gap Project, NISP, and Windy Gap Firming Projects could 
have been Federal reclamation projects, faced with the complexity, 
cost, and uncertainty of the process for new Federal reclamation 
projects, Northern Water and its Municipal Subdistrict and the cities 
and towns who will rely on these water supplies have elected to proceed 
with these Projects as non-Federal projects subject to Federal 
permitting and other requirements.
    Northern Water is not alone in working to develop water supply 
opportunities that are sensitive to environmental needs without 
triggering the complex, costly and time-consuming processes for Federal 
water supply projects. Water providers throughout the West are seeking 
similar non-Federal solutions. However, given the importance and 
prominence of Reclamation facilities in many regions, a non-Federal 
project approach is not always available, and meeting the needs of the 
future will likely require that existing Federal reclamation projects 
throughout the West be optimized to allow additional storage or that 
unused capacity in existing Reclamation projects be made available to 
provide to better manage available non-Federal water resources. The 
``Bureau of Reclamation Surface Water Storage Streamlining Act'' would 
provide welcome improvements in the effectiveness of the process that 
will be required to provide additional storage in a manner that fully 
complies with the requirements of the National Environmental Policy Act 
and other Federal laws.
    NWRA and Northern Water thank you for this opportunity to testify, 
and for your attention to the critical water supply issues facing our 
Nation. We look forward to working with the committee on this important 
issue.

                                 ______
                                 

    Mr. McClintock. Thank you for your testimony.
    I am now pleased to introduce my colleague from California, 
Mr. LaMalfa to make the next introduction.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    I am happy to introduce Jeff Sutton, who has a unique 
understanding of California's water supply system. Jeff is a 
graduate of U.C.-Berkeley, which we will not hold that against 
him, as well as the University of San Diego Law School, which 
we will not hold that against him either.
    He is a longtime resident of northern California, whose 
family has been farming in the Northern Central Valley since 
the 1870s, and he brings us a perspective not just of a family 
farmer directly impacted by drought, but also his experience 
with state and Federal water law and as General Manager of the 
Tehama-Colusa Canal Authority, which supplies 17 water 
districts and irrigates over 150,000 acres.
    Mr. Sutton is also a member of the Sites Joint Powers 
Authority, a group of water districts, local governments, and 
the State of California committed to building Sites Reservoir. 
I believe that we will find his testimony very informative. So 
thank you for joining with us, Mr. Sutton, and I look forward 
to it. I yield back, Mr. Chairman.
    Mr. McClintock. Mr. Sutton, you are recognized for 5 
minutes.

STATEMENT OF JEFFREY P. SUTTON, GENERAL MANAGER, TEHAMA-COLUSA 
              CANAL AUTHORITY, WILLOWS, CALIFORNIA

    Mr. Sutton. Thank you. Thank you, Congressman LaMalfa, for 
all of your support and your bipartisan bill, H.R. 4300, to 
further Sites along, along with Congressman Garamendi. That has 
been very helpful.
    Chairman McClintock, Ranking Member Napolitano, members of 
the subcommittee, thank you for the opportunity to appear 
before you today. Chairman Hastings, thank you for this 
important legislation which TCCA strongly supports.
    And I also would like to mention at this time, before the 
committee visiting with representatives from the Association of 
California Water Agencies, they would also like their support 
to be on the record today.
    My name as introduced is Jeff Sutton. I am General Manager 
of the Tehama-Colusa Canal Authority. We are a joint powers 
authority comprised of 17 water districts, all of whom are 
Central Valley Project water service contractors. We serve a 
150,000 acre service area, providing water to over 1,000 family 
farms that provides a net benefit of over $1 billion annually 
to our region.
    We strongly support this bill because it will provide the 
commitment and direction needed to finalize studies for much 
needed new surface storage in California, which in turn will 
assist the Central Valley Project to operate more effectively 
and efficiently over the long term and allow us to avoid in the 
future the incredible impacts that are currently being 
experienced as a result of the drought crisis in California.
    In my 150,000 acre service area, 17 water districts through 
four counties on the west side of the Sacramento Valley, we 
currently have an allocation from the Bureau of Reclamation of 
zero water. Coupled with the Friant Water Authority, San Luis 
and Delta-Mendota Water Authority service areas, that is over 2 
million acres of irrigated agriculture that is drying up on the 
vine as we sit here today. The impacts to our communities are 
devastating.
    California's existing water storage projects were built to 
service our savings account during times of drought like this, 
a dynamic that has served us well for many years. 
Unfortunately, legislative mandates and regulatory actions have 
greatly reduced the utility and flexibility of these tools.
    The Central Valley Project Improvement Act, the Endangered 
Species Act, biological opinions, the attorney record of 
decision, Delta water quality plans have taken over 3 million 
acre-feet out of our state water supply system. This threatens 
the continued viability of our economy in California.
    Similar droughts in the 1970s and 1990s occurred. We did 
not find the same impacts during that time because we were able 
to rely on the surface storage that operated much more 
effectively. During those times we experienced reduced 
allocations, 50 percent, even 25 percent of water, but never 
anything close to a zero percent allocation.
    So what has changed? During the same period when we have 
eroded our reliability of existing water systems, the state 
population has more than doubled, greatly increasing demand, 
while at the same time we have neglected to replace these lost 
resources. Permitting hurdles, lack of commitment, transparency 
and accountability have continued to impede efforts to make a 
significant investment in new statewide storage.
    In short, while demand of water has increased, our tools to 
manage this vital resource have been eroded. Fortunately, 
during this crisis, California took bipartisan action, almost 
unanimous action to put a water bond before voters in November, 
$2.7 billion being dedicated if passed by the voters to surface 
storage. This creates a great opportunity to leverage those 
dollars and partner with the Federal Government and local 
governments and local water agencies to take a step forward.
    However, without this legislation to get these studies 
done, those projects just will not be realized.
    As mentioned, our agencies along with four other water 
agencies in two counties have formed the Sites Joint Powers 
Authority to push a reservoir that would add 1.8 million acre-
feet to California's water supply system. It would generate an 
annual yield of 540,000 acre-feet, and even more in dry and 
critically dry years.
    Through integrating its operations with the statewide water 
system, it could provide an additional 900,000 acre-feet of 
additional storage in Shasta, Oroville, Folsom, and Trinity 
Reservoirs. The proposed project, which has a uniquely benign 
environmental footprint, it is off-stream, is designed to 
provide not only water supply benefits, but also benefits to 
the Sacramento River ecosystem, water quality conditions in the 
Delta, flood control benefits, power benefits, recreational 
opportunities, providing for emergency flows to the Delta, and 
greatly increasing the cold water pool in upstream reservoirs 
for the benefit of threatened endangered fish species recovery.
    Seeing my time is about up, I will just conclude that by 
accelerating studies, mandating expeditious completion of 
necessary ports, facilitating enhanced interagency 
collaboration, and requiring a commitment to transparency and 
accountability, the Bureau of Reclamation Surface Water Storage 
Streamlining Act would greatly enhance the study process for 
Sites and other projects, such as Shasta and Temperance Flat 
and other projects throughout the West.
    Therefore, we greatly support this proposal, and I thank 
you for this opportunity and stand ready to answer any 
questions you may have.
    [The prepared statement of Mr. Sutton follows:]
Prepared Statement of Jeffrey P. Sutton, General Manager, Tehama-Colusa 
                            Canal Authority
    Chairman McClintock, Ranking Member Napolitano, and members of the 
subcommittee, thank you for the opportunity to appear before you today.
    Chairman Hastings, thank you for introducing this important 
legislation and for continuing to make increased storage and other 
measures to address the historic drought in a California a priority for 
the committee.
                              introduction
    My name is Jeff Sutton, and I am the General Manager of the Tehama-
Colusa Canal Authority (TCCA), a Joint Powers Authority comprised of 
seventeen (17) Water Districts, all of whom are Central Valley Project 
(CVP) Water Service Contractors.
    The TCCA is honored to be here to testify about the ``The Bureau of 
Reclamation Surface Water Storage Streamlining Act.'' The TCCA strongly 
supports this legislation and looks forward to working with you to 
refine and finalize the bill leading up to its consideration on the 
Floor.
    The 150,000 acre service area that the TCCA serves spans four 
counties along the west side of the Sacramento Valley, providing 
irrigation water to a diverse agricultural landscape and over 1,000 
family farms that produce a variety of crops, including: almonds, 
pistachios, walnuts, olives, grapes, prunes, rice, tomatoes, 
sunflowers, melons, vine seeds, alfalfa, cotton, and irrigated pasture. 
The water provided to these lands results in an annual regional 
economic benefit of over $1 billion.
    The TCCA diverts water from the Sacramento River through the 
recently constructed Red Bluff Fish Passage Improvement Project, a 
quarter mile long, positive barrier, flat plate fish screen (one of the 
largest of its kind in the world), and new pumping plant, that enabled 
the retirement of the operation of the Red Bluff Diversion Dam, and the 
elimination of the fishery impacts associated therewith. This Project, 
implemented in partnership with United States Bureau of Reclamation 
(USBR), achieved two important goals: (1) providing the ability to have 
year round, reliable diversions of irrigation water for the farms 
within the TCCA service area; while (2) simultaneously providing for 
unimpeded fish passage to prime spawning habitat on the upper 
Sacramento River for several threatened and endangered species (Winter 
and Spring Run Chinook Salmon, Steelhead, and Green Sturgeon), 
providing great benefit to this important resource and greatly 
enhancing recovery efforts.
                 the current california drought crisis
    As a water manager, and as a member of a family that has farmed in 
the Sacramento Valley since 1870, I can intimately speak to the 
hardships caused by the current California drought crisis, the erosion 
of the reliability of the Central Valley Project, and the impacts that 
have occurred as direct result of the lack of investment in new water 
infrastructure in California to meet the needs of agricultural, urban 
and environmental needs. Rather than speak to you about hypothetical 
scenarios, I thought it would be more helpful for my testimony to 
highlight ways in which enactment of the ``The Bureau of Reclamation 
Surface Water Storage Streamlining Act'' would be beneficial to 
mitigating the impacts of future droughts while also helping make the 
Central Valley Project operate more effectively and efficiently over 
the long term.
    In 2014, for the first time in the history of the TCCA service 
area, all 17 water districts and 150,000 acres of productive farmland 
received an allocation of zero percent of their CVP water contracts. 
This has resulted in estimated fallowing of approximately 70,000-80,000 
acres of land. The idling of this productive farmland has significantly 
reduced the economic productivity of our regional agriculture based 
economy. These impacts are reverberating throughout our communities, 
and are not merely being felt by the farmers who have had to forego 
planting their fields.
    This crisis has also caused secondary impacts to agriculture based 
inputs (such as fuel companies, tractor companies, parts stores, 
fertilizer and seed companies, dryers, mills, and the local labor 
force), and tertiary impacts to other local businesses (stores, 
restaurants, auto dealers, etc.), as well as greatly affected county 
services. This historic lack of water supply is being experienced 
throughout the CVP service area, with the Friant Water Authority water 
districts and San Luis Delta Mendota Water Authority water districts 
also receiving a zero percent allocation. That represents well over 2 
million acres, of some of the most productive farmland in the world, 
receiving not a drop of surface water from the CVP. In these rural 
counties, the farms are the factories that fuel our economy. Without 
the water necessary to lubricate this engine, it all comes to a 
screeching halt.
    While the extremely dry period of hydrology currently being 
experienced in California has greatly contributed to the dire situation 
that exists, lack of foresight, planning, and investment, as well as 
the extreme regulatory environment and permitting hurdles have greatly 
frustrated efforts to manage our water resources and provide the 
necessary water infrastructure to prevent such a crisis.
    During similar drought periods in 1977, and the drought experienced 
from the late 80s through the early 90s, while challenging, did not 
present the same desperation and impacts that are being felt today. 
During those experiences, reduced allocations occurred, but we still 
were able to deliver 25-60 percent of the water contracts. These water 
storage projects were built to serve as our savings accounts during 
times of drought, a dynamic that had served us well, but reduced 
flexibility, lack of investment, and the repurposing of these resources 
for environmental purposes has threatened the continued viability of 
our water supply system.
    What has changed? First, legislative mandates and regulatory 
actions have resulted in lost water supply yield and reduced 
operational flexibility for our existing facilities. Second, permitting 
hurdles and a lack of coordination have prevented new projects from 
being realized.
    Specifically, actions taken pursuant to the Central Valley Project 
Improvement Act, the USFWS and NMFS Endangered Species Act biological 
opinions related to the operations of the CVP, the Clean Water Act, and 
the Trinity Record of Decision have collectively impacted the 
deliveries of the CVP and the State Water Project (two of the largest 
water supply projects in the United States) by millions of acre-feet.
    When combined, an absence of coordination coupled with regulatory 
hurdles have prevented any significant investment in new statewide 
water storage in California since the 70s, during which time the 
population of the state has more than doubled. In short, while the 
demand for water has increased, our tools to manage and supply this 
vital resource have eroded. This is a recipe for disaster, and has 
resulted in impacts to California communities, agriculture, and the 
environment.
                        the need for new storage
    During the last prolonged drought in California, the need for new 
surface storage was identified as a priority. Several projects were 
identified by the CALFED Bay Delta Program, and have been continuously 
studied since the early 2000s. Since that time, which spans well over a 
decade, USBR has expended close to $100 million on surface storage 
studies, and the California Department of Water Resources (CADWR) has 
spent tens of millions of additional dollars, with very little to show 
for it. It should be noted that Shasta Dam was constructed in a 7-year 
period, from 1938-1945, for $120 million. USBR and CADWR have spent 
significantly more than that over the last decade--just studying 
projects. Several worthwhile projects continue to languish in this 
study phase, where they have been stuck for well over a decade, 
including: Sites Reservoir, Shasta Raise, and Temperance Flat.
    The current drought crisis has resulted in the State of California 
realizing the desperate need for new surface storage in California. 
Just a few weeks ago, the California legislature passed the ``Water 
Quality, Supply, and Infrastructure Improvement Act of 2014,'' which 
will be on the November ballot. If approved, the Proposition will 
provide over $7.5 billion in funding for enhanced water infrastructure, 
including $2.7 billion dedicated to fund up to 50 percent of storage 
projects for public benefits. This creates a very real opportunity for 
significant progress toward needed storage investments, and the 
opportunity to leverage state, Federal and local funds to accomplish 
this goal.
    That said, funding for additional storage will be of little use 
unless studies of proposed projects are completed in a more 
expeditious, cost-effective and informed manner. Doing so will enable 
us to capitalize on this opportunity to invest in and build the 
infrastructure needed to avoid these types of drought impacts in the 
future. The proposed Sites Reservoir is an excellent example to 
demonstrate this need.
                            sites reservoir
    The North of Delta Off-Stream Storage Project investigation (one of 
the aforementioned proposed CALFED storage projects; also referred to 
as ``Sites Reservoir'') has been studied since 2002. During that time, 
USBR has spent approximately $12.7 million on the Sites feasibility 
study, and CADWR has spent many tens of millions more. Despite these 
years of effort, and tens of millions of dollars in funding, this 
process has still failed to reach conclusions regarding the project's 
benefits, costs, proposed operations, and overall feasibility. Some of 
the delays can certainly be attributed to the complexity of the multi-
jurisdictional nature of the proposal coupled with the challenges 
inherent in the constantly shifting regulatory environment associated 
with the CVP OCAP biological opinions. However, the fundamentals of the 
project have not changed in over a decade making Sites a clear 
demonstration of the need for systemic, legislative improvements.
    Growing concerns about the delays of this effort resulted in the 
formation of a local agency, Sites Project Joint Powers Authority, to 
provide a local sponsor for the project. The Sites JPA is made up of 
seven local agencies (including Tehama-Colusa Canal Authority, Glenn 
Colusa Irrigation District, Reclamation District 108, Maxwell 
Irrigation District, Yolo County Flood Control and Water Conservation 
District, and the Counties of Glenn and Colusa) and was formed to 
establish a local voice for the project, and a public entity to work 
with the state and USBR to design, construct, manage, and operate this 
proposed reservoir.
    A 1.8 million acre-foot capacity Sites Reservoir would generate an 
average annual yield of 400,000 to 640,000 acre-feet in dry and 
critically dry years; and through integrating its operations with the 
statewide water system, would provide an additional 900,000 acre-feet 
of additional storage in Shasta, Oroville, Folsom and Trinity 
Reservoirs during the important operational periods of May through 
September.
    The Sites Project would not only significantly enhance water 
supply, it would also provide substantial improvements to the 
Sacramento River ecosystem, water quality conditions in the Delta, 
flood control benefits, increased recreational opportunities, emergency 
flows for the Delta, and a greatly increased cold water pool in 
upstream reservoirs, that would provide significant and important 
habitat improvements for threatened and endangered fish species.
    Further, the Sites Reservoir, as an off-stream storage facility, 
has an incredibly benign environmental footprint. It utilizes existing 
water conveyance facilities, and diverts water from the Sacramento 
River through state-of-the-art fish screens to avoid harm to the 
fishery. However, lack of funding to allow for expedient completion of 
these studies, as well as a lack of accountability and commitment to 
finalizing these studies, continues to plague the efforts to complete 
this investigation and to realize the benefits of this dynamic project.
    The proposed ``Bureau of Reclamation Surface Water Storage 
Streamlining Act'' would greatly enhance this process by accelerating 
studies, mandating the expeditious completion of necessary reports, and 
requiring a commitment to transparency and accountability. For these 
reasons, the Tehama-Colusa Canal Authority strongly supports this 
legislation.
                            recommendations
    In addition to establishing an expedited project study process, the 
Bureau of Reclamation Surface Water Storage Streamlining Act would also 
facilitate enhanced communication and collaboration between Members of 
Congress, the Bureau of Reclamation and impacted stakeholders which 
will be vital to informing decisions about needed storage projects as 
well as the status of ongoing proposals and how best to implement them.
    While the TCCA strongly supports this legislation, we would like to 
suggest a minor edit which we believe would make its implementation 
more effective. We concur with the Family Farm Alliance regarding the 
need for language that ensures that when USBR is the lead agency for 
permitting a non-federally built project with a direct Federal nexus 
(such as the case may be for Sites Reservoir, and was the case for the 
Los Vaqueros raise, which then will be integrated into the Central 
Valley Project operations but remain a non-federally developed and 
owned facility), that USBR will remain the lead agency and its 
permitting process will remain subject to the applicable provisions of 
this legislation.
    It is also the TCCA's sincere hope Mr. Chairman that you and the 
other members of the committee will continue to work with your 
counterparts on the appropriations committees of jurisdiction to ensure 
that adequate funding is provided to complete and, where possible, 
expedite current ongoing studies such as Sites Reservoir.
    While these studies come at a cost to the taxpayer, I believe that 
they are, on the whole, investments that provide a good return. For 
example, this year alone, it has been estimated that the impacts 
associated with the California drought have resulted in over $2 billion 
in losses to the agricultural sector of the state alone. Further, the 
Federal Government, as well as the State of California, have both spent 
considerable sums on drought relief over the past couple of years.
    I am confident that by expediting the permitting process for 
additional storage, in a responsible way, this legislation will help 
build the storage necessary to mitigate the economic and environmental 
impacts of droughts and substantially reduce future impacts and drought 
relief spending.
                               conclusion
    The ``Bureau of Reclamation Surface Water Storage Streamlining 
Act'' consists of a number of common-sense proposals directed at 
removing unnecessary bureaucratic impediments to new storage in a 
manner that would provide additional water supply certainty to the 
businesses, individuals and wildlife whose well-being and, in many 
cases, survival is inextricably linked to the importance of 
congressional action to mitigate the adverse impacts of future 
droughts.
    Therefore, it is my sincere hope that those who have concerns with 
this legislation will engage with you in a collaborative dialog about 
how best to address their concerns in a manner that will allow this 
legislation to pass the House in the near future so that it can be 
enacted and signed into law this year. The Tehama-Colusa Canal 
Authority looks forward to assisting you in this endeavor and we hope 
you won't hesitate to call upon us to do so.
    Again, thank you for the opportunity to testify, I look forward to 
answering any questions you may have.

                                 ______
                                 

    Mr. McClintock. Great. Thank you very much, Mr. Sutton. 
Thank you all for your testimony. We will now go to 5-minute 
questions beginning with the Chair.
    The first question I have is simply to note what each of 
you have already cited and what the author of the measure has 
pointed out, that provisions of this bill are already included 
in WRRDA for dams that are constructed by the Army Corps of 
Engineers; is that correct?
    Mr. Sutton. Correct.
    Mr. McClintock. That WRRDA bill with those provisions was 
supported by every member of this committee, Democrat and 
Republican.
    Now, I wonder if any of our witnesses could explain why the 
expedited permitting process is appropriate for dams 
constructed by the Army Corps of Engineers but not for dams 
constructed by the Bureau of Reclamation.
    Mr. Raley. Sorry. I am not able to do that.
    Mr. Keppen. Same here. I would agree that I am not able to 
do that, but I would point out that these projects by the 
Bureau of Reclamation do require repayment, and those projects 
are being repaid, whereas most of those WRRDA projects do not 
get repaid.
    Mr. McClintock. That is a very good point. In fact, the 
Ranking Member tells us we should not build new dams until the 
old dams are paid for, but as the Chairman pointed out, that is 
the same sense that a 30-year mortgage is not paid off in 15 
years. It is paid off in 30 years.
    And then we are told, well, those loans might not be paid 
back some time in the future. Now, I have never heard of a loan 
officer saying, ``Well, yes, for the last 15 years this loan 
has been paid off every single month, but who knows? The 
borrower might lose his job sometime in the future. So we might 
not have the loan paid back.''
    I mean, this seems silly to me. Can any of you put any more 
sense to it?
    Mr. Keppen. I mean, I think that is a great analogy. I 
agree with what you and Chairman Hastings said.
    The other aspect of this is just the importance of these 
original projects to rural communities like the one I live in. 
I live in Klamath Falls. The Klamath Irrigation Project is one 
of the oldest reclamation projects in the West.
    Agriculture is what drives the county I live in. It is a 
$600 million a year economy, and I would like to think that 
some of those Federal investments that were made way back when 
are paying off in other ways that perhaps this recent report 
does not talk about.
    Mr. McClintock. We are also told that we should not support 
this measure because it does not fund the actual construction 
of new dams, although that is included in other legislation, 
H.R. 3981, for example, but it seems to me we cannot build dams 
if we cannot get the dams approved, and that is the whole 
problem that this bill addresses; is that correct?
    Mr. Raley. Yes, Mr. Chairman. And I do want to point out 
that the Northern District has been successful in developing 
other projects, but the facts that allow that are not always 
present. There are many projects where that opportunity simply 
does not exist, and if a project is going to go forward, it is 
going to have to be a Bureau project.
    Mr. McClintock. Now, Mr. Sutton, I quoted the Bureau of 
Reclamation's written testimony that they are not aware of any 
reclamation surface storage water projects that have been 
denied construction because of delays associated with project 
review or permitting, but, Mr. Sutton, your testimony details 
the Bureau of Reclamation's delays on studying the Sites 
Reservoir.
    Reclamation might be correct that they never deny anything, 
but also do they ever approve anything? And is that not the 
problem the bill seeks to address?
    Mr. Sutton. Yes, Mr. Chairman. The CALFED Storage Projects 
have been studied since 2002. Bureau of Reclamation alone has 
spent $99 million during that time studying projects, the State 
of California another $50-plus million.
    And, no, nothing has been denied, but continuing to study 
endlessly is akin to a denial. We have spent more money 
studying these CALFED projects than we spent, $120 million, to 
build Shasta Reservoir.
    Mr. McClintock. Why do you not say that again just so it 
sinks in?
    Mr. Sutton. One hundred and twenty million dollars to build 
Shasta Reservoir; over $150 million to study the CALFED 
Projects with nothing to show for it.
    Mr. McClintock. And let us just go back to the Sites 
Reservoir for a moment: over a million acre-feet of storage, 
annual yield of up to 640,000 acre-feet in dry and critically 
dry years.
    Suppose Sites were online today. How would that have 
alleviated the miseries facing the people of California?
    Mr. Sutton. In a year like this the dry hydrology has 
certainly been a challenge, but in 2012 and 2013, we could have 
captured significant water resources that were lost to the 
ocean, and that water could be used not only to provide water 
supply, but also to meet water quality needs in the Delta and 
upstream cold water needs for endangered species.
    Mr. McClintock. So if the project had been approved 10 
years ago rather than studied to death over the past 10 years, 
that water would be available right now.
    Mr. Sutton. We would not be suffering from the dramatic 
impacts that we suffer from today.
    Mr. McClintock. Thank you.
    I am now pleased to yield 5 minutes to the Ranking Member.
    Mrs. Napolitano. Thank you, sir.
    Do you think there needs to be more Federal funding for 
water development? All of you, anybody?
    Mr. Keppen. Well, I will just say, first of all, I mean, a 
lot of the grant programs, assistance programs in general, loan 
programs that were available in past decades for reclamation 
projects are no longer there. Anybody probably would say, yes, 
it would be nice to see more Federal funding.
    However, the reality is I think we have all understood here 
over the last decade or so that is probably not going to happen 
any time soon. Our philosophy has been, again, pushing to try 
to be constructive in forums like this, find ways to facilitate 
the development of these projects that recognize that the 
states and the local entities also have a role to play when it 
comes to financial assistance.
    Mr. Sutton. I would add Sites Reservoir is integrated into 
the CVP and provides great public benefits, and the way that 
project has been shaped helped shape how the water bond has 
been developed to pay for up to 50 percent of those public 
benefits.
    I do think that the investments the Federal Government has 
made in water storage has been repaid several times over. Just 
the service area that I deliver water to provides a regional 
annual benefit of $1 billion a year.
    So I think there are real opportunities.
    Mrs. Napolitano. Thank you. I am short on time.
    Mr. Sutton. I am sorry.
    Mr. Raley. I will save your time. Our answer would be that 
the appropriations process is above our pay grade. What we do 
think is out there and attainable is optimizing existing 
systems, and if we cannot have efficient Bureau study 
processes, you cannot bring in non-Federal partners and non-
Federal dollars because they will not start the process because 
there is no end to it.
    Mrs. Napolitano. But you also need the assistance by 
funding the agencies to do a better job.
    Mr. Sutton. Of course, I believe the Bureau can be quite 
adept at meeting the needs within its existing budget.
    Mrs. Napolitano. Well, that is the point, that they have a 
backlog of millions of dollars, just in recycling alone.
    How much water has been brought on line due to 
Reclamation's various conservation actions? Anybody know? 
WaterSMART, for instance, how much water did it bring in?
    Nobody knows? It is 400,000 acre-feet as of 2013, 
WaterSMART.
    I have a bill that would reauthorize the Water Desalination 
Act of 1996, which has been stuck in this subcommittee. It 
would fund Federal research and development projects into 
desalination, the conversion of sea water into fresh water, as 
we all know.
    Mr. Keppen, your group mentions the need for desalination. 
As part of the diversified water portfolio. Can you and the 
rest of the panel expand on whether you support initiatives, 
such as my bill, to expand our water supply?
    Mr. Keppen. I think we have been pretty consistent in 
saying it is going to take a suite of actions to address our 
challenges. That includes demand management. It includes reuse. 
It includes supply enhancement.
    Mrs. Napolitano. Does that mean I can count on your 
support?
    Mr. Keppen. I will definitely consider it and likely would 
say yes.
    Mrs. Napolitano. Gentlemen?
    Mr. Raley. Unfortunately, Colorado is quite removed from 
the ocean. So it is not something we consider.
    Mrs. Napolitano. But do you have brackish water in your 
aquifer somewhere?
    Mr. Raley. Not as that term is understood elsewhere in the 
West. There are aquifers with varying water quality, but we do 
not have the same issues/potentials that other areas may have.
    Mrs. Napolitano. OK. Sir?
    Mr. Sutton. Water conservation is an important tool. 
Desalination is an important tool. My growers have spent 
millions of dollars of their own money to implement micro drip, 
berry drip, micro sprinkler systems to stretch their water 
supplies, particularly in these times that this regulatory 
framework is----
    Mrs. Napolitano. How about water recycling of their own 
farm runoff?
    Mr. Sutton. We have water recycling systems that have been 
put in. Almost nothing leaves our ranches in the Tehama-Colusa 
Canal Authority service area. We use 300,000 acre-feet for 
150,000 acres. Our water use efficiency is unparalleled.
    Mrs. Napolitano. Then I gather from your answers that you 
do support other items in the portfolio to be able to address 
water drought cycles and the need for expansion of water.
    Mr. Sutton. Absolutely, but if I could add that we have 
seen in the urban areas where they have done great water 
conservation during this time of drought, the Governor of 
California has asked for a 20 percent mandatory reduction.
    In southern California, we have seen a lot of their water 
use actually go up during this dry period because they have 
squeezed that sponge as hard as they can.
    Mrs. Napolitano. But you understand that southern 
California is using almost the same water it has been using 
almost two decades ago by conservation, recycling, 
desalination, and education, which most of northern California 
has not really gotten yet. Many of those areas do not have 
water meters.
    And I yield back.
    Mr. Sutton. And they have been able to meet the 20 percent 
reduction this year.
    Mr. McClintock. The gentlelady's time has expired.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    It is interesting, the whole spectrum of this debate here, 
where as was mentioned $150 million studying Sites Reservoir 
where the entirety of Shasta Dam was conceived, permitted and 
built for $120 million, and yet we hear in this committee room 
things about holding government accountable, and the cost of 
doing that with oversight is unaffordable. But that is not for 
this committee today.
    But also, yesterday in discussion that California is in a 
drought situation and that naturally when you have less rain, 
you are going to have less water available. But if water is 
stored you get through those drought periods longer the more 
basins you have water stored in.
    So I guess it causes the question of, is this drought 
purely just a natural drought or is it exacerbated and made 
exponentially worse by inaction, Federal regulations, lawsuits, 
things of that nature that prevent mankind from doing what it 
has done in the past, building various sizes of projects or 
desalination, things of that nature.
    Please, Mr. Sutton and Mr. Keppen.
    Mr. Sutton. Well, we have gotten through similar droughts 
like this. Dry hydrology is predictable. This is a predictable 
and preventable crisis. The problem is that we have taken our 
existing infrastructure and strangled it to the point that 
where we used to have when you had full reservoirs, you could 
plan on 3 years, being able to serve 3 years of water through a 
dry period, even into 4 years.
    At this point we have competing biological opinions, one 
saying you have to hold water in the reservoir for cold water 
pool; one saying you have to release it for delta smelt 
competing against each other, draining these reservoirs every 
year and providing us no carryover for these types of 
situations.
    At the same time the population has grown. The demand has 
grown, and we have neglected to invest in new resources to make 
up for that lost utility. In fact, in the Central Valley 
Project Improvement Act (CVPIA), Section 3408(j) requires that 
we look to find ways to replace those lost resources.
    We have made no progress in that regard.
    Mr. Keppen. And I will add, too, I guess your question is, 
and we see a lot of coverage about this, especially in papers 
and media outlets outside of California saying Mother Nature 
and nature is driving this, and there is no doubt about it. 
Drought is driven by nature.
    But you just have to look back over the last 2 years. The 
reservoirs in California were brim full 2 years ago, and Jeff 
may have specific numbers as far as how it relates to CVP, but 
we are down. We have let a lot of that water go to meet the 
requirements of biological opinion.
    And when you look at how the fish that are targeted by 
these flows have benefited, I am not seeing it. I mean, there 
are lots of things that are affecting these fish, but it seems 
like the fishery agencies are focusing on flow primarily, and 
that flow comes out of stored water, which a long time ago was 
developed to benefit M&I and agricultural uses in California.
    When you look at the fish that are being targeted, smelt 
and salmon, the populations over the last 10 years have 
actually declined, while the predators of those fish have 
increased. I have charts that show that. I am putting together 
a journal article right now that has these charts in it.
    So I am not saying that we were going to need more flow to 
make that turnaround. It suggests that it is something other 
than flows alone that are affecting these fish populations, but 
right now the agencies seem to be focusing primarily on using 
stored water to meet flow objectives for the perceived benefit 
of fish.
    Mr. LaMalfa. Then how come our agencies are not helping us 
to develop more water so we have the water supply for flows as 
well as everybody else? Isn't that where really the hang-up is?
    We know that occasionally we are going to have low rainfall 
years, drought periods. We know that we have need for people. 
We know we have need for fish. So does it really come back to 
this is all nature drought or is it manmade drought by 
exacerbating the non-development of new storage for an 
increasing population and an increasing biological need?
    Mr. Keppen. I agree with your latter assessment there, and 
it is not just our inability to develop new storage or 
ineffectiveness in developing new storage and new conveyance 
facilities, but it is also the manner in which some of these 
regulations are being applied by the agencies.
    Mr. LaMalfa. Such as?
    Mr. Keppen. Such as releasing water downstream for the 
perceived benefit of fish with no perceived benefit.
    Mr. LaMalfa. When you do not really see the benefit, yes, 
sir. OK.
    Mr. Sutton, do you have anything to follow up on that?
    Mr. Sutton. I would echo Mr. Keppen's statement.
    Mr. LaMalfa. OK. I yield back, Mr. Chairman. Thank you.
    Mr. McClintock. The Chair is pleased to recognize Mr. Costa 
for 5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman and the 
Ranking Member for holding this hearing.
    I think it is very important, I mean, notwithstanding the 
drought conditions that we face in California and many of the 
Western states, that the fact is that we have a broken water 
system in California.
    And I think the Ranking Member was quite correct to talk 
about the water supply in southern California. What you are 
living off of is less than it was 20 years ago, and to be 
commended for the conservation that has taken place in southern 
California.
    I can make the same statement in the region of the San 
Joaquin Valley. We get far less water than we got 20 years ago. 
As a matter of fact, in the last 5 years our average on the 
West Side has been 44 percent of our allocation, and if you 
take away the great year we had 5 years ago when we had 180 
percent of normal, our average water allocation that we have 
received is 22 percent.
    So we are trying to do more with less, and of course, less 
this year is zero on both sides of the valley, and as I said 
yesterday, if we have an average rainfall this year, which we 
hope and pray we do--we hope it is better--we will get zero as 
well, we believe, given the current operations of the projects.
    And therein lies the dilemma, and that is why this 
legislation, the Reclamation Surface Water Storage Streamlining 
Act, I think, has goals I support. We have been studying 
raising Shasta for over 10 years, almost 20 years. I do not 
know how much more we can study this. We either are going to do 
it or we are not.
    And the same is with Temperance and Sites. I think what we 
have to cut through here is whether it is intended or the law 
of unintended consequences, not to have any more surface 
storage, and some people feel that way, and I respect that. I 
disagree.
    If you have a broken water system that was designed for 20 
million people, we have 38 million people today, and by the 
year 2050, we have to use all the water tools in our water 
toolbox. Conservation is important. We are doing it. We need to 
do more. Transfer of water is important. We are doing it, but 
there are limitations as to how much water you can transfer 
when you do not have it. Grey use of water is important. 
Desalination is important. All of those things are important.
    But by the way, we need to build some additional storage as 
well, and so that is where this legislation is important. If we 
can devise the cost sharing formulas, we need to go ahead. We 
can mitigate what issues are out there, and I think the water 
bond that passed overwhelmingly that the Governor and the 
legislature worked in, again, I will repeat the numbers because 
I was in the legislature, as were all three of my colleagues, 
all four of my colleagues; we were all in the State legislature 
with the exception of our one colleague, Mr. Tipton.
    We passed this water bond in the Senate 37-0. We cannot get 
a motherhood resolution done for 37-0, and in the assembly, it 
was 77-2. So that shows progress. We have to make this sort of 
bipartisan progress here.
    Mr. Sutton, can you go into further detail on how you would 
propose the surface storage under the CALFED authority could 
help this year's drought and future droughts?
    Mr. Sutton. It can do nothing for this year's drought. We 
are----
    Mr. Costa. No, it is not built. I am talking about if it 
were in place and the water was there.
    Mr. Sutton. Ah, thank you.
    Mr. Costa. Let me stipulate that.
    Mr. Sutton. I appreciate that.
    If we had that built, we could have filled significantly 
from 2010 through 2012 and 2013. There were waters that we 
could have diverted. We can divert water even during the 
summertime when they are releasing for fishery flows. We can 
recapture that water, hold it downstream, and then release it 
again for other needs. It lets us use that water over and over 
again.
    We would have increased water for water supply. Upstream 
reservoirs would be healthier for cold water pool for 
endangered fish species, and water quality----
    Mr. Costa. And raising Shasta would provide that same 
purpose, and the two could work well in conjunction.
    Mr. Sutton. The two, they are both dynamic projects. 
Together they work even better.
    Mr. Costa. Right. Any other increasing operational 
flexibility that you can think of that you would suggest to 
recommend to us?
    Mr. Sutton. I think storage north and south of the Delta is 
important. I would go back to, there has been great water 
conservation in southern California, but we should also be 
mindful one of the few projects that has been done 
independently is Diamond Valley, and that is one of the reasons 
they are healthier than the rest of us are, because they have 
been able to build surface storage.
    Mr. Costa. Yes.
    Mrs. Napolitano. Privately.
    Mr. Sutton. I would also----
    Mr. Costa. Well, they fund it among their revenue base.
    Mr. McClintock. The gentleman's time has expired.
    Mr. Sutton. Well, and Sites Reservoir is not necessarily 
looking to the Federal Government for money. We are looking for 
opportunities to work together and integrate it into the 
Central Valley Project, but we are not necessarily looking to 
the Federal Government for those dollars.
    But we have to have them as the Federal lead on this 
feasibility and to finish these studies because to get the real 
benefits for the fish and the water supply benefits, it has to 
integrate with the operation of the other CVP reservoirs.
    Mr. McClintock. OK. The gentleman's time has expired. The 
Chair is now pleased to recognize Mr. Tipton, who is not from 
California.
    Mr. Tipton. Thank you, Mr. Chairman, but a proud Coloradan. 
So I certainly appreciate the time, and I appreciate my 
colleague from California's comments in regards to allowing the 
process really to be able to work when we talk about 20 years 
of study, we are either going to build it or we are not.
    And I believe we can all embrace we want to make sure that 
we have appropriate public input going in, but, gentlemen, 
maybe you would each like to speak to this briefly.
    Does H.R. 5412 cut the public out of the Bureau of 
Reclamation's feasibility study process?
    Mr. Keppen. I do not see that. I did not read that in the 
bill, and I vetted the bill with several dozen of the top water 
professionals in the West, and that concern was not brought up 
by any of them. I may have missed something, but I did not see 
it in my reading.
    Mr. Raley. I do not read it as shortening or minimizing in 
any respect the ability of the public to participate in a water 
storage project. Those opportunities are throughout the 
process, and the feasibility study is only a portion of it. The 
public will have ample opportunity for full comment.
    Mr. Sutton. I would briefly add I do not see how it 
circumvents any environmental regulations. It does not 
circumvent the opportunities for public comment required by 
NEPA. I do not see any way, shape or form that it circumvents 
the public process.
    Mr. Tipton. Great. That is my read of the bill as well, and 
as experts, I appreciate your comment on that.
    You know, Mr. Keppen, you were talking about maintaining 
flow for some fish in the river, actually reducing some of the 
water supply. I found it devastating when we had pictures out 
of California. We saw dried up orchards, which had to be jobs, 
by the way, families that were struggling and struggling very 
much to be able to survive.
    We have proposed rules that are coming forward out of the 
EPA, the ``Waters of the U.S.'' Do you see that as a potential 
challenge, again, to water storage to be able to have that for 
our communities, for businesses, for states?
    Mr. Keppen. Well, we are in the process of going through 
the ``Waters of the U.S.'' rule, and also we have weighed in on 
the interpretive rule that talks about certain agriculture 
practices that are exempt. Yes, we are concerned not only with 
that, but also probably even closer to home for you, 
Congressman, Forest Service directives right now that deal with 
groundwater management and best management practices I think 
could have a real impact on the time and the certainty 
associated with permitting some of the storage products up in 
watershed areas.
    I would preliminarily, we share the same concern relative 
to the ``Waters of the U.S.'' rule, and we are developing 
detailed comments for EPA at this point, and we will have them 
ready here in another month or so.
    Mr. Tipton. Perhaps all of you can speak to this because I 
see a multi-tiered challenge in front of us actually when we 
need to be able to store water. We know this. Conservation, 
that is great. We are seeing a lot of efforts in that in our 
various states going on. We do have growing populations, but 
conservation alone, demanding water from agriculture, we do 
have to be able to actually have storage that is going to be 
able to be built.
    We have challenges with redundant regulatory processes 
right now that are inhibiting, as my colleague from California 
was pointing out, holding up these projects. We now couple this 
with the EPA; we have the Forest Service water directive that 
is coming out on groundwater.
    So it is not only regulations inhibiting the ability to be 
able to build these projects; we have the EPA wanting to 
control the water above, the Forest Service the water below.
    Is this a real challenge looking forward for our 
communities? Mr. Keppen, would you like to start?
    Mr. Keppen. Sure. I mean, I will repeat what I just said. 
Already overall new infrastructure projects in general face 
significant permitting hurdles and uncertainty. Sometimes it 
takes millions of dollars just to get through the studies and 
reconnaissance level investigations before you get a handle on 
whether or not something can go further, and oftentimes it is 
the regulatory aspects that are daunting to these things.
    So, our concern is it has created almost a defeatist 
attitude with people that previously decades ago might have 
been more aggressive about trying to develop some of these 
projects.
    Mr. Tipton. Right.
    Mr. Keppen. Some of the regulations you have mentioned are 
just the tip of the iceberg. I mean, we have those. We also 
have stuff coming out of Council on Environmental Quality on 
principles and guidelines on how water policy and plans are 
developed. There are lots of hurdles right now.
    It is tough enough, and it seems like it is becoming even 
more daunting with some of the proposals that are out there 
coming out of the agencies.
    Mr. Tipton. I appreciate Mr. Sutton's comments. It is not 
necessarily even looking for dollars, but just an opportunity 
to be able to create that storage coming out.
    Mr. Chairman, I am out of time. Thank you, and I yield 
back.
    Mr. McClintock. Great. Thank you.
    Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman.
    You know, there continues to be a bit of disconnect in this 
discussion we are having about surface storage, lots of 
``truthing'' that needs to occur on this subject.
    It is not environmental regulation or environmental 
standards that have held back new surface storage projects in 
the last 20 or 30 years. It is money, good old fashioned 
dollars, and I do not think we shed light on this subject when 
we play with numbers.
    So, Mr. Sutton, I just want to ask you about the comparison 
that you made where you pointed out that it cost $120 million 
to build Shasta and we have spent $150 million studying the 
expansion. Well, that makes good media, I suppose, but the 
truth is that $120 million was spent in 1945.
    Mr. Sutton. I have an economics degree. I did not mean----
    Mr. Huffman. You know about the present value of money.
    Mr. Sutton. Absolutely.
    Mr. Huffman. That $150 million was spent very recently. I 
wondered are you able to calculate the actual present value of 
$120 million spent in 1945? Do you have that number?
    Mr. Sutton. I do not have that number.
    Mr. Huffman. I have it. It is actually $1.5 billion. So 
would you not agree that it is a little misleading to----
    Mr. Sutton. That would be a bargain to have Shasta for $1.5 
billion.
    Mr. Huffman. Well, but you were playing a different game 
with those numbers, sir, and I just would suggest that we be a 
little more careful when testifying in front of the Congress of 
the United States. That is not at all accurate.
    The truth is we have a Central Valley Project that is 
behind in its repayment obligations, and I know that folks get 
a little defensive when we talk about this, but it is the 
truth. I have a March 26, 2013 memo here from the Office of the 
Inspector General pointing out that the CVP is way behind. 
There are units, there are pieces of the CVP that have kept up. 
There are certainly reclamation projects around the country 
that have kept up with their repayment obligations, but the CVP 
is way behind.
    And in fact, we have a new GAO report that just came out 
this week that basically reiterates the same point, that 
system-wide we have $1.6 billion outstanding. A lot of that is 
due to the Central Valley Project continuing to be highly 
subsidized and way behind in its repayment obligations.
    So it is fanciful at best, given the deficit nature of 
where the CVP is in its repayment obligation to the United 
States to assume that somehow we are going to come up with a 
whole bunch of new money to build new surface storage for folks 
who have not chosen to go and create their own financing plan 
and their own project and do it themselves.
    We are talking for any of these projects that I look at, at 
the high hundreds of dollars per acre-foot any way you would go 
about financing it, and so it is interesting to hypothesize 
that if Sites, for example, had been approved 10 years ago what 
benefits might that have provided to the system, but I think 
the more germane hypothetical is if it had been approved 10 
years ago, who would have stepped up and paid for it. Who would 
have come up with $3.9 billion and an actual commitment in 
writing, a contract to buy that water over the long term at 
prices that are way more than most agricultural consumers are 
ever willing to pay, except in the most critical drought years?
    Maybe you have an answer to that, but I think that is 
really the only relevant question that would enable this 
discussion to go further.
    Mr. Sutton. Well, I will say the Sites JPA is looking at 
several financing options, and I will say that the State of 
California has found that investment in new surface storage for 
the public benefits that will be provided, which are 
significant with Sites Reservoir, they are looking----
    Mr. Huffman. So your answer is public dollars that would 
pick up the tab?
    Mr. Sutton. No, it is only up to 50 percent of the price 
for the project, only for those metrics that say are for public 
benefit.
    Mr. Huffman. I appreciate the answer, and that is always 
the answer, right?----
    Mr. Sutton. Can I finish?
    Mr. Huffman [continuing]. That we will sort of try to 
characterize a lot of these projects as public benefit. We will 
get the taxpayers to pick up the tab, but meanwhile around the 
state----
    Mr. Sutton. That is a mischaracterization, sir.
    Mr. Huffman. This is my time, sir.
    Meanwhile around the state we have to remember that 
projects have proceeded with local financing. We have surface 
storage projects, despite the continuous mantra we hear about 
California never builds new surface storage. Well, since 1990, 
we have almost a million acre-feet in new surface storage 
between Diamond Valley and Los Vaqueros that happened without 
massive public subsidies, where the actual project 
beneficiaries stepped up and paid for it, and there is nothing 
preventing anyone else in the State of California who is a 
beneficiary of these projects from putting their financing 
together and putting that on the table.
    But it has not happened to date, and until it does this 
continues to be a wishful adventure rather than a serious 
policy discussion.
    Mr. Sutton. And we agree. We are looking to do those 
projects just like the ones that are serving southern 
California and avoiding them from having the impacts that other 
folks are experiencing right now during this drought.
    And I would like to respond to your question or your point 
made on the CVP. We are paying for that. We continue to pay 
that off through 2030. It is becoming incredibly hard though 
when a project that is supposed to serve 3 million acres in a 
year like this is serving zero water. That repayment is through 
our water rates, and when you are not getting any water because 
of the regulatory shutting off of that water, it makes it very 
challenging.
    Mr. McClintock. The gentleman's time has expired.
    The House has been called to votes, but we have completed 
this round of questions, and the Ranking Member has a request.
    Mrs. Napolitano. I do, sir. I would like to introduce into 
the record a letter of opposition from American Rivers Center 
to Biological Diversity, Defenders of Wildlife for Justice, 
NRDC----
    Mr. McClintock. The usual suspects.
    Mrs. Napolitano. And also----
    Mr. McClintock. Without objection.
    Mrs. Napolitano. And I did not hear it mentioned, the 
testimony submitted by the Department of the Interior for 
today.
    Mr. McClintock. That is already part of the record.
    Mrs. Napolitano. OK. Well, I was not sure because I did not 
hear it mentioned, but I would like to be able to state the 
Diamond Valley was built with non-Federal funds. It currently 
stores 800,000 acre-feet up to 2 million, to your point.
    Thank you, Mr. Chairman.
    Mr. McClintock. Very good. Well, if there are no further 
questions, because if there are, we are going to have to go 
vote.
    Mr. LaMalfa. I would note that the CVP would be paid off if 
it had not had over $1.5 billion diverted in environmental 
projects that really had nothing to do with the acres being run 
there, and that the Diamond Valley has been filled with 
northern California water that is not presently in Lake 
Oroville or Lake Shasta.
    So thank you.
    Mr. McClintock. The bad news is if we go to another round 
of questions, we are going to have to hold everybody here while 
we go vote. So as much as I would like to continue the 
discussion, could I suggest that any further questions and, for 
that matter, any further testimony that you would like to make 
in response to the questions that you have received and you did 
not have time to answer, the committee record will be open for 
10 days to receive those responses and to receive those 
additional comments and questions.
    So if there are no further questions here and if there is 
no objection, the subcommittee will stand adjourned. Thank you 
all.

    [Whereupon, at 3:10 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Prepared Statement of the Bureau of Reclamation, U.S. Department of the 
                                Interior

    Thank you for the opportunity to provide the views of the 
Department of the Interior (Department) on the ``Bureau of Reclamation 
Surface Water Storage Streamlining Act.'' This bill was presented to 
the Department just last week, and the Department has not had adequate 
time to conduct an in-depth analysis and develop detailed testimony. 
The Department has expressed concern to the committee that short notice 
of hearings on new bills deprives the Department and the Administration 
the opportunity to provide testimony containing thorough analysis of 
the language. The comments below represent our initial review of the 
bill and, currently, the Department does not support the legislation as 
currently written.

    The Department may provide additional views on this legislation 
after conducting further analysis.

    In general, the legislation aims to expedite completion of new or 
expanded surface water storage, and creates financial consequences for 
Federal agencies found to be out of compliance with the accelerated 
processes prescribed in the bill. The bill designates the Bureau of 
Reclamation (Reclamation) as the lead agency for its various 
deliverables in this area. The Department recognizes the sponsor's 
desire to reduce delays associated with large infrastructure projects. 
We are aware of, but do not agree with, the view that the water supply 
shortfalls common to western states can be remedied with a renewed 
emphasis on reducing analysis that may accompany the construction of 
any new reservoir or other major water project.

    However, as the Department has stated in prior testimony on surface 
water storage before this subcommittee, we are not aware of any 
Reclamation surface water storage projects that have been denied 
construction because of delays associated with project review or 
permitting, or shortcomings in communication among Reclamation or any 
other state or Federal partners. There are more than two dozen 
authorized but unconstructed Reclamation projects, but none of those 
projects was denied construction because of the requirements of the 
National Environmental Policy Act (NEPA) or because it was 
`overstudied.' Rather, as stated in a February 2014 hearing on H.R. 
3981, and in prior testimony at the subcommittee's February 7, 2012 
hearing on surface water storage, project economics and the pricing and 
repayment challenges within the potential markets where projects would 
be built are the primary reasons for many projects being identified 
and/or authorized but not constructed. If nothing else, it appears that 
this bill would restrict the time available to establish the merits of 
a project and to consider the project's potential environmental 
effects. Constraining or circumventing project environmental reviews 
and permits impedes the opportunity to consider alternatives with less 
adverse impacts on communities and the environment which could make 
favorable recommendations for project construction less likely and 
increase the potential for delay as a result of litigation.

    In addition, a brief review of the bill shows that it would impose 
a number of additional requirements on Reclamation and other Federal 
agencies that would not provide a corresponding public benefit or 
increase the likelihood that high-quality, economically justified 
surface water storage projects would be identified, studied and 
constructed. These include a requirement that agencies already 
straining under tight budgets solicit additional proposals from the 
public and track submittals regardless of their inherent merit, 
feasibility or level of stakeholder support. Reclamation already has 
authority, through its Basin Study Program, to solicit and evaluate 
stakeholder-proposed alternatives to address water supply imbalances.

    Reclamation has been working to achieve meaningful efficiencies in 
the implementation of its planning or resource management programs, 
particularly in the area of water transfers. For example, to expedite 
environmental reviews Reclamation already coordinates with stakeholders 
and cooperating agencies, consults with agencies and tribes, employs 
programmatic environmental documentation in appropriate cases, and uses 
tiering and supplementation. The Council on Environmental Quality last 
month issued draft guidance designed to assist agencies with the 
effective use of programmatic NEPA reviews, not inconsistent with the 
goals of this legislation. Reclamation and the Department recognize the 
benefits to taxpayers and the Nation of efficiently planned and 
executed water resource projects. Coordination, transparency, 
performance measurement and public input are goals we share with the 
sponsor of this bill, and we have a strong record fostering those goals 
in our programs.

    The Department and Reclamation also recognize that significant 
effort went into developing this legislation. However, given the short 
time provided and based on an initial review of the bill, the 
Department does not support this bill as written.

    Thank you for the opportunity to provide these initial comments. 
The Department may provide further comment on this bill as we conduct 
additional analysis.

                                 [all]
</pre></body></html>
